CERTIFICATE OF SERVICE
No. 20-1009
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
I, Collin P. Wedel, do hereby certify that, on this twentieth day of September,
2021, I caused three copies and an electronic copy of the Brief of the Innocence
Network as Amicus Curiae in Support of Respondents in the foregoing case to be
served by first-class mail, postage prepaid, and by email, on the following:
LACEY STOVER GARD
Office of the Attorney General
400 West Congress Street
Bldg. S-315
Tucson, AZ 85701
(520) 628-6654
lacey.gard@azag.gov
Counsel for Petitioners

ROBERT MARK LOEB
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, N.W.
Washington, D.C. 20005
(202) 339-8475
rloeb@orrick.com
Counsel for Respondents

/s/ Collin P. Wedel
COLLIN P. WEDEL
SIDLEY AUSTIN LLP
555 West Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000

